HHS/OIG-Audit-"Review of Medicaid Claims for Patients Under Age 21 in Private Psychiatric Hospitals That Were
Institutions for Mental Diseases in California During the Period July 1, 1997, Through January 31, 2001,"(A-09-02-00083)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for Patients Under Age 21 in Private Psychiatric Hospitals That Were Institutions for
Mental Diseases in California During the Period July 1, 1997, Through January 31, 2001," (A-09-02-00083)
November 30, 2004
Complete
Text of Report is available in PDF format (692 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if controls were in place to preclude California from claiming Federal Medicaid
funds for medical services, except inpatient psychiatric services, provided to residents under age 21 in private psychiatric
hospitals that were institutions for mental diseases.  We found that California improperly claimed Federal funds because
it did not have controls to prevent claims for medical services.  As a result, from July 1, 1997, through January
31, 2001, we estimate that California improperly claimed $310,266 ($155,133 Federal share) for such medical services.  We
recommended that California (1) refund $155,133 to the Federal Government; (2) implement controls to prevent Federal funds
from being claimed for such medical services; and (3) identify and refund to the Federal Government any Federal Medicaid
funds improperly claimed after January 31, 2001.